COMMONWEALTH of VIRGINIA
Office of the Attorney General

202 North Ninth Street
Richmond, Virginia 23219
804-786-7240
FAX 804-371-0200
theytens@oag.state.va.us

Mark R. Herring
Attorney General

April 21, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Re:

Watson v. Virginia, No. 20-7339

Dear Mr. Harris:
On April 15, 2021, we received notification of the Court’s request that a
response to the petition for writ of certiorari be filed on or before May 12. On
account of our current workload, we respectfully request a thirty-day extension of
time, until June 10, to file the requested response brief.
We thank the Court for its consideration.
Very truly yours,

Toby J.
Heytens

Digitally signed by
Toby J. Heytens
Date: 2021.04.21
11:35:28 -04'00'

Toby J. Heytens
Solicitor General of Virginia
Counsel of Record for Respondent

cc: Kevin Antonio Watson, pro se
329 Dellbrook Lane
Independence, VA 24348

